HHS/OIG-Audit--"Results of the Audit of Investment Income Earned by Managed Care Organizations with Risk-Based Contracts, (A-02-98-01005)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of the Audit of Investment Income Earned by Managed Care Organizations with Risk-Based Contracts," (A-02-98-01005)
August 18, 2000
Complete
Text of Report is available in PDF format (2.28 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that risk-based managed care organizations (MCO) may have annually earned investment income
in excess of $100 million on Medicare funds although under the Medicare fee-for-service system and many other Federal programs
such income is usually limited due to financing arrangements, or required to be returned to the Federal Government, or
used to benefit the program and its beneficiaries. We believe such should be the case with risk-based managed care organizations.
Consequently, we are recommending that the Health Care Financing Administration (HCFA) pursue legislation to adjust the
timing of Medicare's prepayments to MCOs to maximize the Health Insurance Trust Fund's earnings while minimizing the opportunity
MCOs have to earn investment income on Medicare funds, or adjust the MCO payment rates to recognize the impact of investment
income on the total funding available to MCOs for servicing their Medicare enrollees. The HCFA agreed that their policies
should hold MCOs accountable for investment income earned on Medicare funds and should be used to benefit Medicare enrollees.
However, HCFA officials stated they do not intend to pursue legislative changes at this time.